No. 19-185

 

IN THE
Supreme Court of the United States

KALEV MUTOND, ET AL.,

Petitioners,
Vv.

DARRYL LEWIS

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the
District of Columbia Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,016 words, excluding the parts of the document that are exempted by Supreme Court

Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 9, 2019.

    

Colin Casey Hogan
Wilson-Epes Printi
